HHS/OIG, Audit -"Review of Ryan White Title II Funds at the Puerto Rico Health Department,"(A-02-03-02002)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Ryan White Title II Funds at the Puerto Rico Health Department," (A-02-03-02002)
September 30, 2005
Complete
Text of Report is available in PDF format (3.5 mb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to determine, for the period April 1, 2001, through March 31,
2002, whether the Puerto Rico Health Department: (1) claimed CARE Act Title II expenditures in accordance
with Federal requirements, and (2) purchased prescription drugs at the lowest price available.  We
found that the Health Department claimed $1,567,993 for costs that were not allowable.  The Health
Department also did not establish procedures to ensure that the CARE act Title II program was the payer
or last resort.  The Health Department did not always purchase drugs at the lowest price available
or take advantage of all prompt payment discounts.
We recommended that the Health Department:  (1) refund to HRSA $1,567,993 for
unallowable costs; (2) ensure that expenses claimed include only actual paid amounts; (3) ensure that
amended Financial Status Reports are submitted when overcharges are discovered; (4) ensure that Title
II is the payer of last resort for clients who have drug insurance coverage or are enrolled in other
assistance programs; (5) refund to HRSA $1,117,831 for medications that were not purchased at the lowest
price; and, (6) establish procedures to ensure that invoices are paid within the discount periods.  In
its reply to the draft report, the Health Department neither concurred nor nonconcurred with our recommendations,
but did express its intention to continue working on the issues raised.